A

No.

11-1101

3fn Wqz

Supreme Court of tfje ®ntteb States?
»

i

TIMOTHY C. YOAKUM
Petitioner
v
SABRE GLBL INCORPORATED,
Respondent

On Petition For Writ Of Certiorari To The
United States Court Of Appeal For The Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

TIMOTHY C. YOAKUM, pro se
1305 Glenfield Avenue
Dallas, TX 75224
Phone 214-233-6271
i

received
DEC 3 0 WW

t

1

QUESTIONS FOR REVIEW
Does the issuance of an undeserved Performance Improvement Plan (PIP) and
undeserved employee performance review become actionable under Title VII
as an adverse employment action if they negatively affect the employee’s
compensation arid employment?

Whether the appellate court decision to affirm, the district court opinion and
final judgment granting the defendants motion for summary judgment as a
matter of law, infringed on the rights afforded to us in Amendment VII?

p
11

PARTIES TO THE PROCEEDINGS
Petitioner Timothy C. Yoakum is the Plaintiff and Appellant below.
Respondent Sabre GLBL, Incorporated is the Defendant and Appellee below

•i

Ill

TABLE OF CONTENTS
QUESTIONS FOR REVIEW

i

PARTIES TO THE PROCEEDINGS

ii

TABLE OF AUTHORITY

iv

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THis PETITION

8

1.

The underserved performance improvement plan

2.

The undeserved employee performance review

11

3.

The rulings and Amendment VII

13

CONCLUSION

8

15

Appendix A

1

Appendix B

4

Appendix C

6

r----

IV

TABLE OF AUTHORITY
Cases
. Harvill v. Westward Communications.L.L. C., 433 F.3d 428, 434 (5th Cir. 2005). 15
929 F.2d 1054, 1058 (5th Cir. 1991)

9

Allbritain v. Texas Dep't of Ins., No. A-12-CA-431-SS, 2014 WL 272223, at *4 (W.D.
Tex. Jan. 23, 2014

13

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247 (1986)

8

Anderson v. Liberty Lobby, Inc., 477 U.S. 242,255 (1986)

13

Arey v. Watkins, 385 F. App'x 401, 404 (5th Cir. 2010

15

Bobo v. ITT, Continental Baking Co., 662 F.2d 340, 342-45 (5th Cir. 1981};

17

Brooks v. City of San Mateo, 229 F. 3d 917 - Court of Appeals, 9th Circuit 2000.” . 11
Brown v. Kinney Shoe
Celotex Corp. v. Catrett, 477 U.S. 317, 323, 325 (1986)

14
8

Cooper v. Texas Wesleyan Univ., No. 05-09-00347-CV, 1999 WL 1179613, at *3-4
(Tex. App.-Dallas Dec. 15, 1999, pet. denied}

17

E.E.O.C. v. Boh Bros. Constr.Co., L.L.C., 731 F.3d 444 (5th Cir. 2013

16

E.E.O.C. v. WC&M Enters., Inc., 496 F.3d 393 (5th Cir. 2007

16

Eure v. Sage Corp., 61 F. Supp. 3d 651, 660 (W.D. Tex. 2014}

17

Faragher v. City of Boca Raton, 524 U.S. 775, 787-88 (1998)

16

Felton v. Polles, 315 F.3d 470, 486 (5th Cir. 2002

12

Gray v. Powers, 673 F.3d 352, 354 (5th Cir. 2012)).

14

Great S. R.R. v. Louisville & Nashville R.R., 224 F.2d 1, 5 (5th Cir. 1955)

14

V

Green v. Brennan, 136 s. Ct. 1769, 1776 (2016); Faruki v. Parsons S.I.P., Inc., 123
14

F.3d 315, 319 (5th Cir. 1997)
Harris v. Forklift Systems, Inc., 510 U.S. 17, 21 (1993

16

Jones v. Borden Co., 430 F.2d 568,574 (5th Cir. 1970)

14

Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,475 U.S. 574, 587, 597 (1986)
McCoy v. City of Shreveport, 492 F.3d 551, 556 (5th Cir. 2007

9
12

Mississippi Prot. & Advocacy Sys., Inc. v. Cotten, the Fifth Circuit

9

Mota v. Univ. of Tex. Houston Health Sci. Ctr., 261 F.3d 512, 519 (5th Cir. 2001 .. 13
Ramsey v. Henderson, 286 F.3d 264, 268 (5th Cir. 2002

15

S •. Ins. Co. v. Affiliated FM Ins. Co., 830 FJd 337,343 (5th Cir. 2016)

14

Shackelford v. Deloitte & Touche, L.L.P., 190 F.3d 398, 403-04 n.2 (5th Cir. 1999) 12
Stewart v. Miss. Transp. Comm n, 586 F.3d 321,328 (5th Cir. 2009)

4

Thomas v. Napolitano, No. 3:10-CV-265-B, 2013 WL 12250942, at *18 {N.D. Tex.
Jan. 15, 2013

14

Thompson v. City of Waco, 764 F.3d 500, 503 (5th Cir. 2014

12

Tucker v. Collier, 906 FJd 295, 302 (5th Cir. 2018)

13

Turner v. Novartis Pharmaceuticals Corp., 442 F. (5th Cir. 2011)
Turner v. Novartis Pharms. Corp., 442 F. App'x 139, 141 (5th Cir. 2011)......
Urrutia v. Valero Energy Corp. 1 841 F.2d 123, 125 (5th Cir. 1988

3
....13
17

Statutes
28 USC § 1254(1).

1

42 U.S.C. § 1981

7

VI

42 U.S.C. §§ 2000e to 2000e-17

7

Rules
Fed. R. Civ. P. 56(a

8

Fed. R. Civ. P. 56(c)

8

Rule 56(a) of the Federal Rules of Civil Procedure

8

Other Authority
Summary Judgment Under Federal Rules, 99 F.R.D. 465, 472 (N.D. Cal. 2008)
10

1
OPINIONS BELOW
There was no opinion provided by the Court of Appeals. The order affirmed per
curiam and is included as Appendix A Motion for leave to file out of time for
rehearing was GRANTED and motion to petition for rehearing was DENIED
included as Appendix B. The district court opinion, order and final judgement
is included as Appendix C.

JURISDICTION
The Fifth Circuit issued its order per curiam August 22, 2019. Then denied the
Petition for Rehearing on September 24, 2019. The Court has jurisdiction
under 28 USC § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendment VII states “In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of trial by jury shall be
preserved, and no fact tried by a jury, shall be otherwise reexamined in any
Court of the United States, than according to the rules of the common law.”

2
STATEMENT OF THE CASE
1.

The -Plaintiff Appellant Timothy C. Yoakum ("Yoakum" or "Plaintiff’)
filed charges of discrimination with the Equal Employment Opportunity
Commission October 23, 2017 which was 252 days beyond the last date
a violation of discrimination took place February 13, 2017. However, the
harassment and hostile work environment started in March 2016 and
continued through February 13, 2017. Administrative remedies were
exhausted with the EEOC and plaintiff received a Right to Sue Letter.

2.

Plaintiff established a relationship with McBeth Law Office, Hiram
McBeth III, Esquire. Plaintiff filed charges against the defendant Sabre
GLBL Incorporated ("Sabre" or "Defendant") in the United States
District Court, Northern District of Texas, Dallas Division on February
1,

2018 and by order of the court the case transferred on

Februaryl4,2018 to Forth Worth Division in Tarrant County
3.

Yoakum’s leadership and comparable. Mr. Chris Wilding (“Wilding”)
Senior Vice President, Air Commerce (Tibor’s Supervisor) Mr. Chad
Tibor (“Tibor”) Vice President, Air Commerce — (Yoakum’s Supervisor)
Ms. Rowena Capili (“Capili”) Principle, Account Manager Air Commerce
-(Comparable)

4.

Sabre filed a motion for Summary Judgement pursuant to Rule 56
Federal Rules of Civil Procedure on November 16, 2018.

3
5.

Plaintiff filed a motion and brief in opposition of defendant’s motion for
summary judgment on December 6, 2018. Defendant filed a reply in
support of its motion for summary judgement on December 18, 2018.
“Citing Turner v. Novartis Pharmaceuticals Corp., 442 F. (5th Cir.
2011), the Defendant suggests that Tibor's reviews and his decision to
issue Yoakum a PIP cannot serve as adverse employment actions.”
“ In Turner, the court did not hold such decisions can never serve
as adverse employment actions; rather, thecourt explained that the PIP
could not serve this purpose where "[tjhere [was] no evidence that
Turner was demoted or received reduced compensation due to the PIP."”
“(Defendant ties decreased bonus to negative review) (PIP telegraphs
impending demotion with change of job title and responsibilities).
Yoakum further explained in his deposition that the PIP he received was
effectively a termination letter.”
“In March 2016, Yoakum received the 2015 bonus, which was part
of his compensation through Sabre's Variable Compensation Plan
("VCP"). (V CP is one of the plans under which bonuses were paid). Upon
receipt, Yoakum noticed that his 2015 payment was lower than that
received in the previous two years. (Yoakum received a 2015 payment
of$l,728 compared to a 2014 payment of $6,150 and a 2013 payment of
$6,648). When Yoakum asked his supervisor, Tibor, about this drop in
pay, Tibor refused to look Yoakum in the eye while telling him that

4
bonuses were lower that year because "the company did not make its
goals.
“The Defendant's only response in opposition to the application of
the continuing violation doctrine appears to be that "Plaintiff
conspicuously failed to check 'continuing action’ on his charge." Such
reliance on form over substance, however, is not one of the limitations
on the doctrine recognized by the courts. See, e.g., Stewart v. Miss.
Transp. Comm n, 586 F.3d 321,328 (5th Cir. 2009) (continuing violation
doctrine is limited in three ways: (1) plaintiff must demonstrate that
separate acts are related or else there is no single violation that
encompasses earlier acts, (2) violation must be continuing and
intervening action by employer, among other things, that will sever acts
that preceded it from those subsequent to it, precluding liability for
preceding acts outside filing window, and (3) continuing violation
doctrine is tempered by court's equitable powers, which must be
exercised to honor Title VII's remedial purpose without negating
particular purpose of charge-filing requirement).”
” The connection in the case at bar is evident from the beneficiary
at the end of all of Yoakum's mistreatment-his female coworker,
Capili. The rules that were imposed on Yoakum were not applied to
Capili, compare R. App. 12:16-24, with id. at 13:1-3. The compensation
through bonuses and stock options that Yoakum was denied inevitably

j

5
ended up being funneled to Capili. This was the case despite the fact
that Capili was responsible for the very problems that were being
attributed to the Plaintiff. See, e.g., R. App. 8:3-10:6. Tibor's preferential
treatment of Capili even provided her with access to, meetings where
Yoakum's demotion and reassignment was planned. Id. at 6:19-7:”
6.

District Court filed an opinion, order and final judgment granting the motion
for summary judgment and dismissed all Yoakum’s claims on December 19,
2018.
“For example, placing an employee on a performance improvement plan
is not an adverse employment.” “Plaintiffs receipt of a smaller bonus than in
prior years was not connected to his PIP; nor was his failure to receive stock
options. Those events were tied to his 2015 performance review, which took
place a year before the PIP. “Further, plaintiff has nothing but his own
speculation to support the contention that the PIP invariably would have
resulted in his termination. Plaintiff resigned instead of making any effort
whatsoever to improve his performance or even address what he considered to
be unjust requirements.” “In fact, the court is satisfied that this claim is
frivolous. Plaintiff does not point to any evidence that even establishes the
nature of the hostility he claims existed. There is no evidence that race played
any role. His claim of sexual discrimination appears to be based solely on his
speculation that Capili was conspiring with Tibor to harm plaintiff. See, e.g.,
Doc. 24 at R. App. 6-7, 24 (assuming "[s]he was sabotaging my work" refers to

f:

6
Capili), 25- 26, 27. And, there is no evidence of the existence of a hostile work
environment of the type that would support a claim at all.”
7.

Yoakum filed a timely Notice to Appeal pro se with the District Court on
January 18, 2019.

8.

Yoakum filed a motion to file out of time on the Principle Brief it was
GRANTED on May 29, 2019 and the Principle Brief was filed May 29, 2019.
The statement of issues presented for review on appeal were the
following. “(1) Whether the plaintiff is similarly situated to his comparator?
(2) Whether the continuing violations doctrine will be invoked for the hostile
work environment and constructive discharge violations beyond the 300-day
limitation period? (3) Whether the plaintiff established a prima facia case of
discrimination? (4) Whether the Performance Improvement Plan (‘PIP’) is
pretextual for discrimination and a tangible adverse job action? (5) Whether
the discrimination forced a constructive discharge?”

9.
10.

Sabre GLBL filed an Appellee brief on June 28, 2019.
Yoakum filed a reply brief on July 19, 2019
Court of Appeals filed summary calendar PER CURIAM AFFIRMED see rule
47.6 on August 22, 2019
As the appellate court delivered no opinion there is no specificity in their
affirmation of the district court. “Rule 47.6 Affirmance Without Opinion. The
judgment or order may be affirmed or enforced without opinion when the court
determines that an opinion would have no precedential value and that any one

7
or more of the following circumstances exists and is dispositive of a matter .
submitted for decision: (1) that a judgment of the district court is based on
findings of fact that are not clearly erroneous; (2) that the evidence in support
of a jury verdict is not insufficient; (3) that the order of an administrative
agency is supported by substantial evidence on the record as a whole; (4) in the
case of a summary judgment, that no genuine issue of material fact has been
properly raised by the appellant; and (5) no reversible error of law appears. In
such.case, the.court mav,_in_its discretion, enter either of the following orders:
"AFFIRMED. See 5TH CIR. R. 47.6." or "ENFORCED.”
11.

Yoakum filed a motion for leave to file petition for rehearing out of time which
was GRANTED on September 24, 2019. Yoakum filed a petition for rehearing
DENIED September 24, 2019.

8
REASONS FOR GRANTING THIS PETITION
1.

The underserved performance improvement plan

In the District Court, Yoakum was a represented plaintiff and his attorney
argued and shared the case law from the fifth and ninth circuits who recognize
that with evidence an

undeserved negative

employee review and a

performance improvement plan that demote or reduce compensation are
considered an adverse employment action. The district court and appellate
court believed the defendants proffered reason for placing Yoakum on the PIP
“ after receiving multiple customer complaints against Yoakum in 2016, Tibor
placed Yoakum on a PIP” as noted in the district court’s opinion further noted
“Internal complaints had been lodged, as well as customer complaints” This is
testimonial evidence brought forward from the defendant in the declaration of
Mr. Chad Tibor. However, there is no physical evidence brought forward by the
defendant of internal or customer complaints lodged against Mr. Yoakum. No
physical evidence from the defendant to prove their nondiscriminatory reason
is their true motivation for placing Mr. Yoakum on PIP. The undisputed facts
state in 2015 — 2016 Yoakum’s title was Principal Named Accounts and his pay
consisted of salary and bonus. Under item 2 of the underserved PIP Yoakum
had been demoted to Principal Account Manager and reprimanded for a delay
to a project that took place when he was a Principle Named Accounts in
October 2016. Yoakum was not a Principal Account Manager in October 2016
on this project, although he was on the project, his co-worker and comparator

9
Ms. Capili was the Principal Account Manager on this project.

In the

defendant’s testimony as a reason for the demotion Mr. Tibor states it was a
“reorganization that never occurred” this is referring to a meeting Mr. Tibor
scheduled in November 2016 when he informed Mr. Yoakum of the demotion.
However, that was 1 month after the delayed projected had completed in
October 2016. After the November 2016 meeting, there was no more discussion
about the demotion until the issuance of the underserved PIP in February
2017V This is when Mr. Wilding and Mr. Tibor documented the demotion by
identifying Yoakum as the Principal Account Manager to reprimand him, even
though Capili was the Principle Account Manager on the project, she was not
reprimanded. In Yoakum’s sworn testimony he states Mr. Tibor and Ms. Capili
were conspiring against him. Mr. Tibor shared with Ms. Capili in her 2015
performance review that job changes in 2016 would inevitably occur and they
were keeping a close eye on opportunities for Ms. Capili. Mr. Tibor required
her to be included on all Mr. Yoakum’s customer calls and meetings. Mr. Tibor
was keeping a close eye out for Ms. Capili and Ms. Capili was motivated to
keep her job and she sabotaged Mr. Yoakum’s work
In 2016 Mr, Yoakum was subject to reduced compensation and demotion
through issuance of an undeserved performance improvement plan and
employee

performance

review.

The

underserved

PIP

is

where

the

discrimination culminated and although the employee performance review is
outside of the limitation period it is a continuation of discrimination that

10
connects to the underserved PIP and their reasons of motivation are disputed.
The 4 elements of a prima facie case have been met 1) The plaintiff is a member
of a protected group. 2) The plaintiff was qualified for the position he was
performing 3) The plaintiff satisfying the normal requirements of the position.
4) The plaintiff singled out for discipline and discharge while a similarly
situated employee was not comparably disciplined and retained.
“When there is a conflict in the underlying evidence material to the
determination of the ultimate fact, there is of course a triable question
for the jury.”

[I]t is assumed that twelve men know more of the

common affairs of life than does one man, that they can draw wiser and
safer conclusions from admitted facts thus occurring than can a single
judge.Summary Judgment Under Federal Rules, 99 F.R.D. 465, 472
(N.D. Cal. 2008)
Mr. Wilding and Mr. Tibor provided 30 days in the PIP for Yoakum to improve
but success would never be attainable or allowed. The PIP was Yoakum’s
notice of termination an after a year of harassment in 2016, from Mr. Wilding
questioning his manhood, Mr. Tibor’s underserved comments, yelling and
criticism and the conspiracy between Mr. Tibor and Ms. Capili made for a
hostile workplace feeling isolated it was incredibly unbearable. Yoakum had
no other option their actions forced him to resign.

11
2.

The undeserved employee performance review

Its Yoakum’s sworn testimony, that the overall performance evaluation
rating given to Yoakum for his 2015 performance is clearly misaligned with
the goals he achieved in that same year. Further to his sworn testimony there
is no documentation provided in the evaluation that would substantiate the
comments made by Mr. Tibor about Mr. Yoakum. “Among [the] employment
decisions that can constitute an adverse employment action are termination,
dissemination of a negative employment reference, issuance of an undeserved
negative performance review and refusal to consider for promotion. Brooks v.
City of San Mateo, 229 F. 3d 917 - Court of Appeals, 9th Circuit 2000.”
Yoakum’s sworn testimony states that he never has had a customer or
internal complaint raised against him and this was Yoakum’s first and only
negative performance review in his career working for the defendant
It is also Yoakum’s testimony that his supervisor Mr. Chad Tibor and his
colleague who is an Asian female in a similarly situated role, Ms. Rowena
Capili met bi-weekly and Ms. Capili shared with Mr. Tibor inaccurate
information about Mr. Yoakum, which amounted to nothing more than gossip
and innuendo -meant to sabotage Mr. Yoakum’s work. Mr. Tibor used this
information against Mr. Yoakum in his 2015 performance evaluation as Mr.
Tibor notes “he had received internal feedback.” Further, evidence of their
conspiring, Mr. Tibor informed Ms. Capili in her 2015 performance evaluation
of forward looking information about job changes in 2016 about keeping his

12
eyes open for opportunities and about job changes which would enviably occur,
yet Mr. Tibor did not shared the same information with Yoakum in his 2015
evaluation. Further, in Yoakum’s sworn testimony, he found out from a co­
worker, that Ms. Capili told this co-worker, but only after he had retired, that
she had a voice in the decision of Yoakum’s demotion.
Even though Mr. Yoakum voiced his disagreement with his 2015 performance
review it was met with Mr. Tibor’s accepting no changes and offering no
documentation to substantiate his comments about Mr. Yoakum. Mr. Tibor
controlled Mr. Yoakum’s overall performance score because the defendant
weights the company values section at fifty percent of the total score. This gave
Mr. Tibor the opportunity of using this subjective values section to manipulate
the review and to achieve a’ partially successful’ overall score for Mr. Yoakum.
While Yoakum never agreed with his 2015 overall evaluation score it was
electronically signed and submitted without Yoakum’s knowledge or approval
a month after it was issued.

The underserved negative performance review

also became the defendants second proffered reason for negatively affecting
Mr. Yoakum’s compensation in the form of a significantly reduced,
disproportioned annual bonus and for not awarding him with stock options in
March 2016. As Mr. Tibor testified, if Mr. Yoakum had a better than “partially
successful.” overall performance score, his bonus would have been larger, and
he would have received stock option awards. However, Ms. Capili had an
exceptional overall performance, Mr. Tibor also relying on the values section

13
to reach her overall performance score. This action by Mr. Tibor and Mr.
Wilding gave Mr. Yoakum the feeling of intentional harassment discrimination
and with using gossip obtained from the comparator to negatively evaluate
Yoakum and adversely affect his compensation. This was exceptionally
egregious because Ms. Capili received a larger bonus and stock options for
sabotaging Mr. Yoakum’s work. When Mr. Wilding and Mr. Tibor imposed this
action on Mr. Yoakum it created the hostile work environment. Due to the
conspiring between Mr,. Tibor and Ms. Capili made the entire work
environment of deception and distrust made it difficult to get work done until
Yoakum was forced to resign in February 2017.
3.

The rulings and Amendment VII
“When ruling on a motion for summary judgment, "[t]he evidence of the

non-movant is to be believed, and all justifiable inferences are to be drawn in
his favor." Anderson v. Liberty Lobby, Inc., 477 U.S. 242,255 (1986); see also
Tucker v. Collier, 906 FJd 295, 302 (5th Cir. 2018) ("[T]he court views all facts
and evidence in the light most favorable to the nonmoving party."). The trial
court must also refrain from either making credibility determinations or
weighing the evidence. S \ Ins. Co. v. Affiliated FM Ins. Co., 830 FJd 337,343
(5th Cir. 2016) (citing Gray v. Powers, 673 F.3d 352, 354 (5th Cir. 2012)).
Summary judgment may be rejected "in cases .'where motive, intent, subjective
feelings and reactions, consciousness and conscience (are) to be searched, and
examination and cross-examination (are) necessary instruments in obtaining

14
the truth.'" Jones v. Borden Co., 430 F.2d 568,574 (5th Cir. 1970) (quoting Ala.
Great S. R.R. v. Louisville & Nashville R.R., 224 F.2d 1, 5 (5th Cir. 1955)).
In the district court opinion, Yoakum’s claims of harassment were recognized
as frivolous and Yoakum’s certified and sworn testimony was viewed as
speculation. In the declaration of Mr. Chad Tibor, the defendant’s statements
attack Yoakum’s character and if these statements were taken as truth it
would call Mr. Yoakum’s credibility into question. These statements are
recognized in the undisputed facts of the district court’s opinion “he was
regularly late to calls and meetings”

internal complaints had been lodged,

as well as customer complaints.” “significant improvement was needed” these
statements require examination and cross examination because they are
historical facts in dispute and are material to the ultimate fact, which is not
a question of law, but they questions that need to be determined by a jury.
Even though the defendant does not have to prove the articulated proffered
reasons were not discrimination, the law does require the party bring forward
sufficient admissible evidence to support a particular proposition of fact to
satisfy the burden of production.
When James Madison drafted Amendment VII and included it into the Bill
of Rights which was added to our United States Constitution on September
5, 1789 and was voted for by 9 out of 12 states on December 15, 1791. This
shows the Framers had remarkable foresight, they understood the
importance of protecting our civil liberties and maintaining a fair court

15
system. These reasons are why Amendment VII is a fundamental law of this
country and why it remains just as important in the year 2019.

CONCLUSION
This petition for a Writ Of Certiorari should be
granted.

Respectfully submitted,

Timothy C. Yoakum, pro se

r

APPENDIX A
In The United States Court Of Appeals For The
Fifth Circuit
No. 19-10067
Summary Calendar D.C. Docket No. 4:18-CV-127

TIMOTHY C. YOAKUM,
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
FILED

Plaintiff - Appellant

AUGUST
V.

22,2019

LYLE W. CAYCE CLERK

SABRE GLBL INCORPORATED,
Defendant - Appellee

Appeal from the United States District Court for the
Northern District of Texas

JUDGMENT
This Before WIENER, HAYNES, and COSTA, Circuit
Judges.
Cause was considered on the record on appeal and the
briefs oil file. It is ordered and adjudged that the judgment
of the District Court is affirmed. See Rule 47.6.

